No.
IN THE
SUPREME COURT OF THE UNITED STATES
DANNY LEE WARNER JR.
PETITIONER
VS
STATE OF MONTANA - RESPONDENT
PROOF OF SERVICE
I, Danny Lee Warner Jr., do declare that I served the enclosed
Motion to proceed IN FORMA PAUPERIS and Petition for Writ of certiorari
on Tim Fox, attorney General for Montana, by depositing an envelope
containing these documents in the institutional mail, properly
addressed, with a special mailing request attached to pay for postage.
I declare under penalty of perjury that the foregoing is true
and correct, dated this
day of July, 2020.

l

